U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Orlando Bell v. United States, No. 20-5689
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 10,
2020. The government’s response is now due, after one extension, on November 13, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 11, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5689
BELL, ORLANDO
USA

MARY ELIZABETH DAVIS
DAVIS AND DAVIS
1350 CONNECTICUT AVE. NW
WASHINGTON, DC 20036

